Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




        Status of Efforts to Increase
            the Qualifications of
            Head Start Teachers




                        Inspector General

                        JANUARY 2004
                        OEI-07-01-00560
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended
by Public Law 100-504, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by the following operating components:

Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.

Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                             EXECUTIVE SUMMARY

OBJECTIVE

          To assess factors contributing to Head Start’s progress and programs’ experiences in
          increasing teachers’ qualifications.

BACKGROUND

          With the passage of the Community Opportunities, Accountability, and Training and

          Educational Services (COATS) Act (P.L. 105-285) in 1998, Congress reauthorized 

          Head Start through fiscal year (FY) 2003 and amended the Head Start Act. The amendments

          required more specific education performance standards and increased teacher qualifications. 

          The COATS Act specifically mandates that by September 30, 2003, at least 50 percent of

          Head Start teachers nationwide in center-based programs must have an associate,

          baccalaureate, or advanced degree in early childhood education; or a degree in a field related

          to early childhood education, with experience teaching preschool children. According to the

          Administration for Children and Families (ACF), Head Start met this requirement with 51

          percent of teachers nationwide holding appropriate degrees in FY 2002.


          In addition, to the COATS Act, ACF established a self-imposed staffing goal for Head Start

          programs – that each program should strive to achieve 50 percent degreed teaching staff by the

          end of FY 2003. Teaching staff is defined as those staff members who are responsible for

          leading a classroom of children in daily activities.


          A source of data we used in our analysis was ACF’s Program Information Report (PIR). PIR

          is the only comprehensive national source of data available concerning the staffing levels and

          qualifications of Head Start teaching staff. We supported the PIR analysis with data collected

          from a random sample of 300 Head Start program directors and a separate stratified cluster

          sample of 444 current Head Start teachers. We limited our interviews to Head Start programs

          (excluding American Indian and Alaska Native, migrant, and Early Head Start programs). This

          limitation allowed us to make more uniform comparisons across programs.


FINDINGS

Several Factors Have Contributed to Head Start’s Progress in Increasing
Teachers’ Qualifications

          Head Start has made significant progress in increasing the qualifications of teachers. Directors
          of Head Start programs report hiring more degreed teachers to improve their teachers’
          qualifications. Directors and teachers also reported that their program supports current,
          nondegreed teaching staff in their pursuit of degrees. In addition, programs



Increasing the Qualifications of Head Start Teachers   i                                       OEI-07-01-00560
          reported using Quality Improvement funds to retain teachers. Finally, turnover rates for Head
          Start teachers remain low, below that for public schools and non-teaching professionals.

Data Reflect That Disparities Exist in the Percentage of Degreed Teachers

          Although we recognize that Head Start is not a regionally or State-administered program, we
          note that specific regions, States, and program types have a lower overall percentage of
          degreed teachers. The lack of degreed teaching staff is particularly acute in 15, mostly
          southern, States. Additionally, American Indian and Alaska Native, migrant, and Early Head
          Start programs are well below the 50 percent program goal. We also analyzed program
          performance among programs within the same county, since programs in the same county are
          likely to face similar circumstances and staffing challenges. We identified a total of 72 counties
          that had at least 1 program meeting ACF’s self-imposed staffing goal and 1 program not
          meeting the goal.

          Directors’ attitudes regarding the degreed teaching staff requirement may influence the
          percentage of degreed teaching staff in their programs. Directors we interviewed who had a
          positive attitude concerning the value of degreed teaching staff in Head Start also had a higher
          percentage of degreed teaching staff in their own programs.

RECOMMENDATION

Provide Targeted Assistance to Programs Who Have Not Met ACF’s Self-Imposed
Staffing Goal

          ACF, in conjunction with their regional offices, needs to target assistance to those programs
          where the level of degreed teaching staff is below 50 percent. The first priority should be to
          assist programs in those regions and States that are having the most difficulty. Special attention
          also must be focused on American Indian and Alaska Native, migrant, and Early Head Start
          programs, most of which were well below ACF’s self-imposed goal for degreed teaching staff.

AGENCY COMMENTS

          In its written response to the report, ACF concurred with our recommendation to provide
          targeted assistance to programs which had not met ACF’s self-imposed staffing goal of 50
          percent degreed teachers with a degree in early childhood education or a degree in a field
          related to early childhood education in each program by September 30, 2003. It will
          prioritize these efforts in Head Start programs in Regions 4 and 6, States that are below 50
          percent, as well as American Indian and Alaska Native, migrant, and Early Head Start
          programs.

          We have made technical revisions to the report based on ACF’s comments. The full text of
          ACF’s comments is contained in Appendix D.



Increasing the Qualifications of Head Start Teachers   ii                                        OEI-07-01-00560
                              TABLE OF CONTENTS

                                                                                                                                      PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Several Factors Have Contributed to Head Start’s Progress in Increasing Teachers’

          Qualifications . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Data Reflect that Disparities Exist in the Percentage of Degreed Teachers . . . . . . . . . . . . . . . 7


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDICES

          A: Methodology - Data Collection and Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          B: Confidence Intervals - Reported Teacher Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          C: 	Traditional Head Start Programs’ Reported Progress in Achieving At Least

              50 Percent Degreed Teaching Staff for Head Start Enrollment Year

              2001 - by State . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


          D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

                                         INTRODUCTION

OBJECTIVE

          To assess factors contributing to Head Start’s progress and programs’ experiences in
          improving teachers’ qualifications.

BACKGROUND

          With the passage of the Community Opportunities, Accountability, and Training and

          Educational Services (COATS) Act (P.L. 105-285) in 1998, Congress reauthorized 

          Head Start through fiscal year (FY) 2003 and amended the Head Start Act. The amendments

          required more specific education performance standards and increased teacher qualifications. 

          The Act sought to:


                      • Increase the number of degreed teachers and teaching staff seeking degrees.
                      •	 Address issues that could affect teachers’ recruitment and retention, such as salaries
                         and benefits.
                      • Improve the school readiness of Head Start children.
                      •	 Foster collaboration between the Head Start program and other State and local
                         entities involved in child care and/or programs for low income children and their
                         families.

          The COATS Act specifically mandates that, by September 30, 2003, at least 50 percent of
          Head Start teachers nationwide in center-based programs 1 must have an associate,
          baccalaureate, or an advanced degree in early childhood education; or a degree in a field
          related to early childhood education, with experience teaching preschool children.2 According
          to the Administration for Children and Families (ACF), Head Start met this requirement with 51
          percent of teachers holding appropriate degrees in enrollment 2002.

          The COATS Act provided only part of the motivation related to the increase in teachers’
          qualifications. To further strengthen the educational achievement of Head Start teachers, ACF
          notified each program via Program Instruction that, “Although the statutory mandate is that
          50 percent of Head Start teachers nationally have degrees, we expect that all



          1	
               Head Start programs are either center-based (services are provided at a facility) or home-based (services
               are provided at an individual’s home).

          2	
               “Community Opportunities, Accountability, and Training and Educational Services Act of 1998,”
                (P.L. 105-285), Sec. 115 [amended Sec. 648A of the Head Start Act (42 U.S.C. 9843a)].


Increasing the Qualifications of Head Start Teachers               1                                                   OEI-07-01-00560
          programs will strive to achieve at least this level by the end of FY 2003.”3 An official with

          ACF’s Head Start Bureau acknowledged that it is unlikely that each program will

          meet the goal by the end of FY 2003, but Head Start expects the programs to do their best.4


Presidential Initiative for Early Childhood Education

          The President has firmly supported the need for increased teacher qualifications. In his 2002
          State of the Union Address, he stated,

                      “We need to prepare our children to read and succeed in school with
                      improved Head Start and early childhood development programs. We
                      must upgrade our teacher colleges and teacher training and launch a major
                      recruiting drive with a great goal for America: a quality teacher in every
                      classroom.”

          In this address, the President proposed the early childhood initiative - Good Start,
          Grow Smart - to help States and local communities strengthen early learning for young
          children.

Concerns of Stakeholders and Advocacy Groups

          We held discussions with key internal stakeholders and external advocacy groups (e.g., ACF
          Head Start Bureau, National Head Start Association, National Association for the Education of
          Young Children). Each strongly supported having more highly educated and better paid
          teachers. Yet they described what they believed were potential unintended consequences of
          the COATS Act. These concerns included the following:

                  •	 Head Start programs may need to hire outside the local community to find degreed
                     teachers, with such “outsiders” lacking an understanding and appreciation of the local
                     community and diminishing the bond between the program and the community it serves.
                 •	 Child Development Associate (CDA) staff – especially those with the knowledge of
                     how to “navigate the system” – may be “pushed out” because of the need to hire
                     degreed teachers. (CDA staff are those nondegreed staff who have a child
                     development associate credential appropriate to the ages of the children in the program
                     they work for, or those nondegreed staff who have a State-awarded certificate for
                     preschool teachers that meets or exceeds the requirements of the CDA).
                 •	 Head Start pays for teachers to earn degrees, and those teachers then leave for higher
                     paying positions in school districts or outside the teaching field.
                 • Training opportunities in early childhood education, especially in rural areas, may


          3	
               The Administration for Children and Families (ACF), Program Instruction: ACYF-PI-HS-00-03,
               December 22, 2000, p. 5.

          4
               Discussion with an official of ACF, Head Start Bureau, June 12, 2002.


Increasing the Qualifications of Head Start Teachers             2                                          OEI-07-01-00560
                      be remote or unavailable, which would hinder programs’ progress in attaining the 50
                      percent staffing goal for degreed teachers.

          We explored these issues throughout the course of our study.

METHODOLOGY

Since 1987, ACF has used the Program Information Report (PIR) to capture information about Head
Start programs. PIR is the only comprehensive national source of data available concerning the staffing
levels and qualifications of Head Start teaching staff. (Teaching staff is defined as those staff members
who are responsible for leading a classroom of children in daily activities.) This annual report collects
program level data describing the children and families enrolled and the services provided. Over the
past several years, the report has been modified to collect additional information, including teachers’
qualifications, new hires, and staff turnover. To assess Head Start’s progress in increasing teachers’
qualifications, we used the PIR. We supplemented this data with information collected from a simple
random sample of program directors and a random stratified cluster sample of Head Start teachers.
We conducted a trend analysis of the PIR data for all Head Start programs for the 5 enrollment years
ending in 1997 through 2001.5

We selected a simple random sample of 300 Head Start program directors, based on programs who
submitted PIR data for Head Start enrollment year 2001. We excluded five programs after learning
that the programs were solely home-based or were no longer active. We received responses from
263 directors, for an overall response rate of 89 percent (263/295). However, the response rate for
individual questions varied. We received responses from at least 205 directors for the questions we
analyzed.

From a stratified cluster sample of 444 current and 176 former teachers, we gathered information
concerning their goals for obtaining degrees (if they did not have one), their experiences obtaining
degrees, the challenges they faced, the support received from the Head Start program, and their
motivations for remaining with or leaving the program. The overall response rate for the former
teachers was only 25 percent, which prevented meaningful statistical analysis. Therefore, we dropped
this group from our sample population. The response rate for current teachers was 94 percent
(418/444).

Finally, we reviewed the laws, regulations, and agency policies related to the increase of Head Start
teacher qualifications. Further details concerning the methods used for this inspection are presented in
Appendix A.




          5	
               The enrollment year is defined by ACF as the period of time, not to exceed 12 months, during which a
               Head Start Program provides center or home-based services to a group of children and their families, PIR
               User’s Guide, April 2002, p. 19. The enrollment year 2001 covers the period September 2000 through June
               2001 and was the latest complete year available at the time of our review.


Increasing the Qualifications of Head Start Teachers              3                                                 OEI-07-01-00560
Limitations

          The data in this report concerning the qualifications of Head Start teaching staff are based on
          the final PIR data reported to ACF by Head Start programs for enrollment year ending in
          2001. We encountered challenges working with these data both in terms of how the data were
          collected year-to-year, and how the programs completed the PIR. An example of the
          problems we encountered was that response categories were not mutually exclusive, meaning
          that some teachers could have been counted more than once. Therefore, comparing the number
          of teachers in relation to degrees could not guarantee accuracy. Also, due to the unique nature
          of migrant programs and the clients they serve, information does not always “fit” into the
          reporting structure of PIR data elements. However, given that the PIR is the only
          comprehensive national source of data regarding Head Start teachers’ qualifications, and that
          the responses we received from Head Start program directors and teachers did not contradict
          the PIR data, our findings reflect PIR data despite its potential problems.

          We also limited our interviews to traditional Head Start programs (excluding American Indian
          and Alaska Native, migrant, and Early Head Start programs). This limitation allowed us to
          make consistent comparisons across programs.

Inspection Standards

          We conducted this inspection in accordance with the Quality Standards for Inspections
          issued by the President's Council on Integrity and Efficiency.




Increasing the Qualifications of Head Start Teachers   4                                     OEI-07-01-00560
                                                       FINDINGS

          According to ACF, 51 percent of Head Start teachers held appropriate degrees in enrollment
          year 2002, effectively meeting the COATS Act mandate. This percentage is an improvement
          over the 34 percent of teachers who held appropriate degrees in 1997, the year before the
          passage of the COATS Act. Eighty-six percent (184/213) of the responding directors stated
          that having more degreed teaching staff has enhanced their programs. Ninety-two percent of
          degreed teachers and 83 percent of Child Development Associates (CDAs) agreed. As one
          CDA stated, “I always knew what to do as a teacher, but now I understand the theory of why I
          do it.”

Several Factors Have Contributed to Head Start’s Progress in
Increasing Teachers’ Qualifications

Directors Hired Degreed Teachers to Fill Vacancies

          Directors frequently hired degreed teachers to fill vacancies. From September 1998, through
          June 2001, directors reported hiring 1,374 degreed teachers and only 433 CDAs. This trend is
          supported by our examination of the national PIR data for all Head Start programs for
          enrollment years 1997 through 2001, which showed that the proportion of CDAs declined by
          15 percentage points, while the proportion of degreed teachers increased by 11 percentage
          points (Table 1). Directors noted that hiring a degreed teacher is easier, takes less time, and
          costs less than training nondegreed staff.

                                                                  Table 1
                                    National Summary of all Head Start Programs 1997 through 20011
                                           Percent of Increase of Teachers (Degreed and CDA)
                                                     by Head Start Enrollment Year
                                               Source: Program Information Report Data

                                                                 Total             Percent
            Enrollment           Total            Total         Degreed           Degreed            Total
               Year            Programs2         Teachers       Teachers          Teachers 3         CDAs         Percent CDAs 3

                 1997             1,889            35,709        12,167             34.1%            19,964           55.9%

                 1998             2,020            39,2494
                                                                 12,585             32.1%            21,787           55.5%

                 1999             2,107            42,471        15,753             37.1%            20,695           48.7%

                 2000             2,210            43,364        17,549             40.5%            20,030           46.2%

                 2001             2,299            47,161        21,252             45.1%            19,299           40.9%
            1
                At the time of our review, PIR data for enrollment year 2001 were the latest complete year available. PIR data for
                enrollment year 2002, which indicate that 51 percent of teachers held appropriate degrees, became available after
                completion of our field work.
            2
                The numbers and percentages shown above are for those programs that are required to report teaching staff and
                had at least one teacher.
            3
                The sum of the percent of degreed teachers and the percent of CDAs does not equal 100 percent. Some CDAs
                were in training at the time the PIR was submitted, or their educational qualifications were not specified.
            4   In 1998, family childcare providers were included in the total teacher count of the Head Start program.




Increasing the Qualifications of Head Start Teachers              5                                                  OEI-07-01-00560
          Eighty-six percent of the responding directors (205/239) stated that they primarily hire from
          within their local community, and 70 percent of these directors (143/205) were able to obtain
          the required number of degreed teachers. Of the directors who noted challenges in recruiting
          from within the local community, none reported any ill effect on their program from hiring
          “outsiders.” Rather, we were told that hiring teachers from outside the community improved the
          quality of the program and brought in different perspectives and new ideas.

Programs Were Supporting Staff Efforts to Obtain Degrees

          Teachers reported that programs were providing assistance to help them obtain their degrees.
          Seventy-seven percent of teachers holding CDAs were working toward their degree at the time
          of this review.6 Of these, 87 percent indicated that Head Start had provided assistance to them
          in the form of time off to attend classes, assistance with payment for books and tuition, and/or
          helping with transportation (e.g., payment of mileage). Rather than getting “pushed out,” these
          CDAs will further increase the percentage of teachers with degrees as they complete their
          educations.

Quality Improvement (QI) Funds Were Instrumental in Retaining Teachers

          Specific QI funding is available for Head Start programs to increase staff qualifications and
          retain experienced staff. In FY 2001, programs received QI funding of $355.5 million. 7
          Programs must use at least 50 percent of QI funds to improve the compensation (including
          benefits) of classroom teachers and other staff, unless the program is unable to do so (e.g.,
          salaries are tied to the local school district, and the program cannot exceed those salaries).

          Directors stated QI funds are instrumental in the retention of teaching staff and the overall
          improvement of the program. They cited using QI funds to enhance salaries, increase staff,
          improve benefits, and provide resources for teaching staff to obtain college degrees. Seventy-
          three percent (172/235) of the responding directors reported using 50 percent or more of their
          QI funding to enhance salaries and/or benefits. The remaining 27 percent (63/235) also used
          this funding for salary and/or benefits; however, for reasons similar to that described above, the
          program either could not use the full 50 percent to increase salaries and benefits, or the
          responding agencies did not always know exactly how the parent agency spent the QI funds.

Teacher Turnover Rates Were Low

          Our analysis of the PIR data for all Head Start programs for enrollment years
          1997 through 2001 found the teacher turnover rate did not substantially change in those


          6	
               Percentages cited for degreed teacher and CDA responses were based on weighted responses
               (Appendix B).

          7
               ACF, Head Start Bureau, July 9, 2002.



Increasing the Qualifications of Head Start Teachers           6                                          OEI-07-01-00560
          years, remaining at approximately 7 percent.8 In comparison, the turnover rate in public
          schools was approximately 13 percent, and the turnover rate for non-teaching professionals
          was 11 percent.9 As such, concerns about teachers leaving the Head Start program may be
          less of an issue than anticipated.

          Stakeholders believe salaries to be a key factor in teacher turnover, especially as teachers earn
          degrees. However, of those teachers who reported that they may leave within the next 3 years,
          only 6 percent of degreed teachers and 5 percent of CDAs stated that salary would be a factor
          in such a decision. Overall, 83 percent of degreed teachers and 89 percent of CDAs stated
          they planned to remain with Head Start for the next 3 years. Factors influencing teachers
          decisions to remain with Head Start are listed in Appendix B.

Data Reflect That Disparities Exist in the Percentage of
Degreed Teachers

          In addition to the COATS Act, ACF further strengthened the educational requirement for Head
          Start programs through its self-imposed initiative that all programs would strive to achieve at
          least 50 percent degreed teachers by the end of FY 2003.

Specific Regions, States, and Program Types Attained Lower Overall Percentages
of Degreed Teachers

          We recognize that Head Start is not a regionally or State-administered program. Nonetheless,
          for the purposes of assessing programs’ success in increasing the qualifications of teachers, we
          grouped programs based on ACF regional offices’ jurisdiction, by States, and by type of
          program (i.e., traditional Head Start, American Indian and Alaska Native, migrant, and Early
          Head Start). Table 2 on the following page contains regional/program-type breakdowns. The
          table shows that Regions 4 and 6 have a majority of those programs that fall short of ACF’s
          self-imposed goal. Although Region 7 had a majority of programs meeting ACF’s goal, the
          overall percentage of teachers with degrees is below 50 percent. In addition, American Indian
          and Alaska Native, migrant, and Early Head Start programs are well below 50 percent both in
          terms of individual programs and teachers overall. Appendix C lists the ACF regional office
          responsible for Head Start programs in each State.




          8	
               ACF, PIR reports for Head Start enrollment years 1997 through 2001. Comparison of teachers hired due
               to staff turnover to total teacher staff.

          9	
               Viadero, Debra (April 10, 2002). Researcher Skewers Explanations Behind Teacher Shortage. Education
               Week on the Web. Retrieved July 10, 2002 from
               http://www.edweek.org/ew/newstory.cfm?slug=30aera.h21&keywords=Teacher%20Shortage


Increasing the Qualifications of Head Start Teachers          7                                               OEI-07-01-00560
                                                                Table 2
                                                   Head Start Enrollment Year 2001
                              Progress of Programs in Achieving ACF’s Staffing Goal for Degreed Teachers
                               = Regions in Which the Majority of Programs Have Not Met ACF’s Goal
                                               Source: Program Information Report Data
                                                     Number of
                                   Total           Programs Not                                   Total         Percentage of
                                 Number of            Meeting         Percentage of Programs    Number of         Teachers
                                 Programs           ACF’s Goal        That Have Not Achieved    Teachers        In the Region
                                   In the           for Degreed            ACF’s Goal             In the             with
                  Region          Region1             Staffing         for Degreed Staffing      Region           Degrees2
                    1                 88                22                    25.0%                1,690            59.1%
                    2                 237               38                    16.0%                4,449            70.4%
                    3                 176               50                    28.4%                3,080            65.1%
                    4                 274              199                    72.6%                8,105            34.2%
                    5                 329              102                    31.0%                5,989            57.8%
                    6                 201              133                    66.2%                6,078            32.3%
                    7                 85                39                    45.9%                1,571            43.3%
                    8                 86                42                    48.8%                1,086            52.9%
                    9                 168               81                    48.2%                5,597            49.7%
                    10                62                29                    46.8%                1,395            52.8%
                 Subtotal:           1,706             735                    43.1%                39,040
               American
              Indian and
             Alaska Native            130               93                    71.5%                1,105            23.4%
                  Migrant             63                48                    76.2%                3,097            20.3%
                Early Head
                   Start              400              224                    56.0%                3,919            32.0%
                Nationwide:          2,299             1,100                  47.8%                47,161           45.1%
            1   American Indian and Alaska Native, migrant, and Early Head Start programs have been excluded from the regions’
                total and identified separately.
            2   The numbers and percentages shown above are for those programs that are required to report teaching staff and
                had at least one teacher.


          The lack of degreed teaching staff is particularly acute in 15, mostly southern, States (see the
          map on the following page). These States had total degreed teaching staff of less than
          40 percent in Head Start during enrollment year 2001. In contrast, programs in 14 States and
          the District of Columbia achieved rates of 70 percent or more degreed teaching staff. Details
          concerning Head Start programs’ reported progress in achieving ACF’s goal (by State) for
          enrollment year 2001 can be found in Appendix C.




Increasing the Qualifications of Head Start Teachers              8                                              OEI-07-01-00560
                         Percentage of Head Start Programs Not Meeting ACF’s Self-Imposed
                                               Staffing Goal - By State




                                            Note: Territories are Not Displayed on Map
                                National Total of Programs Not Meeting ACF’s Goal = 47.8% Percent
                             Source: ACF Program Information Report - Head Start Enrollment Year 2001


PIR Data Reflect that the Percentage of Degreed Teachers Varied Among
Programs Within Same County

          Although it is easy to generalize about the successes and failures in increasing teacher
          qualifications based on the Nation, region, or State, our analysis suggests it is important not to
          lose sight of individual programs. We compared Head Start programs within the same counties
          to explore the progress of individual programs facing similar circumstances (e.g., percent
          urban/rural population, educational opportunities, competition for potential employees). We
          identified a total of 72 counties that had at least 1 program meeting ACF’s self-imposed staffing
          goal and 1 program not meeting the goal. The number of programs and the percentage of
          degreed teachers within these counties varied greatly, as demonstrated in the following
          example. One New England county has a total of seven Head Start programs. Teaching staff
          (degreed and CDA) in these programs range from 8 teachers to more than 40. The
          percentages of degreed teaching staff in these programs are as follows:

                     •     One program has 88 percent.
                     •     Three programs range from 60 to 67 percent.
                     •     One program has 50 percent.
                     •     One program has 48 percent.
                     •     One program has 13 percent.



Increasing the Qualifications of Head Start Teachers        9                                           OEI-07-01-00560
          The above illustration suggests that although some programs may have experienced barriers to
          increasing the percentage of degreed teachers, other programs in the same local areas
          overcame these barriers.

The Director’s Attitude May Influence Percentage of Degreed Teaching Staff

          We compared directors’ interview responses regarding the degreed teaching staff requirement
          to the PIR data. Those directors who had a positive attitude concerning the value of degreed
          teaching staff in Head Start had a higher percentage of degreed teaching staff in their own
          programs.10 Correspondingly, directors who responded that this requirement was detrimental
          to Head Start had lower percentages of degreed teaching staff. 11

          One director who was not pushing to meet ACF’s self-imposed staffing goal gave the following
          statement about his program’s efforts to increase the proportion of degreed teaching staff:
          “Even if I don’t get 50 percent, Head Start programs that exceed the 50 percent level will bring
          up those programs that are below 50 percent.”




          10
               This is statistically significant with a p-Value of <0.05 at the 95 percent confidence level.

          11
               This is statistically significant with a p-Value of <0.03 at the 95 percent confidence level.



Increasing the Qualifications of Head Start Teachers               10                                          OEI-07-01-00560
                                  RECOMMENDATION


          Overall, there was an increase in the number of Head Start teachers with degrees and in the
          number of programs that had met ACF’s self-imposed staffing goal in the enrollment years that
          we studied. Directors and teachers believed that the increase in teaching staff qualifications had
          strengthened the program. However, some programs had limited or no success in increasing
          the number of degreed teaching staff. Given the need to provide children with the best “Head
          Start” possible, it is important that ACF ensure that all programs are making positive progress
          in their efforts to increase the number of degreed teaching staff. To this end, we make the
          following recommendation to ACF.

Provide Targeted Assistance to Programs that Have Not Met
ACF’s Self-Imposed Staffing Goal

          ACF, in conjunction with its regional offices, needs to target assistance to those programs
          where the level of degreed teaching staff is below 50 percent. The first priority should be to
          assist programs in those regions and States that are having the most difficulty. Special attention
          also must be focused on American Indian and Alaska Native, migrant, and Early Head Start
          programs, most of which are well below ACF’s self-imposed staffing goal.

AGENCY COMMENTS

          In its written response to the report, ACF concurred with our recommendation to provide
          targeted assistance to programs which had not met ACF’s self-imposed staffing goal of 50
          percent degreed teachers with a degree in early childhood education or a degree in a field
          related to early childhood education in each program by September 30, 2003. It will
          prioritize these efforts in Head Start programs in Regions 4 and 6, States that are below 50
          percent, as well as American Indian and Alaska Native, migrant, and Early Head Start
          programs.

          We have made technical revisions to the report based on ACF’s comments. The full text of
          ACF’s comments is contained in Appendix D.




Increasing the Qualifications of Head Start Teachers   11                                       OEI-07-01-00560
                                                                                       APPENDIX A


                                               Methodology

                                        Data Collection and Analysis


Use of ACF Program Information Report (PIR) Data

          We obtained final PIR data from ACF for all Head Start programs for enrollment years 1997
          through 2001. The numbers and percentages shown throughout this report are for programs
          that are required to report teaching staff and had at least one teacher.

          We converted the PIR Microsoft Access® files obtained from ACF into Statistical Analysis
          Software (SAS ®) to assess national progress in meeting the COATS Act mandate to increase
          Head Start teacher qualifications. The SAS ® data were merged with United States Census
          Bureau urban and rural population statistics by county, allowing us to assess the percentage of
          urban and rural populations in the county where the Head Start program is located.

Sample of Head Start Directors

          We contacted 300 Head Start programs, based on a simple random sample of programs that
          submitted PIR data for Head Start enrollment year 2001. We limited our interviews to
          traditional Head Start programs. This limitation allowed us to make uniform comparisons
          across programs. We excluded five programs after learning the programs were solely home-
          based or were no longer active when we contacted them. We received responses from
          263 directors, for an overall response rate of 89 percent (263/295). However, the response
          rate for individual questions varied. We received responses from at least 205 directors for the
          questions we analyzed. All information gathered from Head Start directors was encoded to
          Microsoft Access® and converted into SAS ® for detailed data analysis.

Sample of Head Start Teaching Staff

          We selected a random clustered sample of Head Start programs based on PIR data for Head
          Start enrollment year 2001, limiting the sample to traditional Head Start programs. We
          grouped all Head Start programs into geographic clusters, based on their zip code. Each
          cluster contained five programs. We then randomly selected 16 of these clusters in 3
          geographic strata: 4 clusters from the Western United States, 5 clusters from the Central United
          States, and 7 clusters from the Eastern United States. We used a random stratified cluster
          sampling methodology to select teaching staff for interviews. We chose this sampling
          methodology in order to project our findings to the universe of Head Start teaching staff. Within
          each sample cluster, we stratified teaching staff into four strata:

                     •     Current teaching staff with an associate degree or higher
                     •     Current teaching staff with a CDA only



Increasing the Qualifications of Head Start Teachers      12                                   OEI-07-01-00560
                     •	 Former teaching staff with an associate degree or higher, who resigned from the
                        program between October 1, 2000 and June 30, 2001
                     •	 Former teaching staff with a CDA only, who resigned from the program between
                        October 1, 2000 and June 30, 2001

          Within each cluster, we randomly selected 15 teaching staff from each of the 4 strata. If a
          stratum contained fewer than 15 teaching staff, we selected all staff in the stratum. We then
          attempted in-person or telephone interviews with all sampled teaching staff. The rate of
          response from former teachers (degreed and CDA) was low because many of them could not
          be located. Therefore, we did not perform statistical analysis on these sampling groups.

                                 Universe, Sample, and Response Rate for Current and Former Teachers

                                          Universe
           Type of                         for the          Total Sample for the
           Teacher                   16 Sampling Clusters   16 Sampling Clusters   Total Responses     Response Rate

           Current Degreed                      984                 237                 221               93.2%

           Current CDA                          771                 207                 197               95.2%

           Former Degreed                       124                 116                  29               25.0%

           Former CDA                           61                   60                  15               25.0%

           Total:                              1,940                620                 462


          We purposively selected 6 of the 16 sampled clusters for in-person visits, varying both the
          percentage of urban population in the cluster and their geographic locations. We conducted
          on-site visits to the following clusters:

                     •     Cluster 02-Southern California
                     •     Cluster 06-Texas
                     •     Cluster 08-Arkansas, Mississippi, Tennessee
                     •     Cluster 09-Illinois, Indiana, Kentucky
                     •     Cluster 10-Florida
                     •     Cluster 11-New Hampshire, Vermont

          For all sampled teachers, we gathered:

                     •     Pertinent information on their educational opportunities
                     •     Possible barriers they faced in obtaining their degree
                     •     Incentives offered to continue their education
                     •     Salary and benefits offered by their Head Start employer
                     •	    Availability of professional development opportunities since the implementation of
                           the COATS Act
                     •     Factors that influenced their decision to remain with Head Start
                     •     Factors that may cause them to consider leaving the program

          All information gathered from teachers was encoded to Microsoft Access® and was

Increasing the Qualifications of Head Start Teachers          13                                         OEI-07-01-00560
          converted into SAS ® for detailed data analysis. For current teachers, we performed an
          analysis based on a computed sample weight of each sampling cluster as compared to the
          Nation. We examined issues relating to salary, benefits, and factors that teaching staff
          considered important in their decision to either remain with Head Start or seek other
          employment.




Increasing the Qualifications of Head Start Teachers   14                                   OEI-07-01-00560
                                                                                           APPENDIX B


                     Confidence Intervals - Reported Teacher Data


                                                                 Affirmative Response
                               Key Estimates                        Point Estimate           Confidence Interval

          Are you working toward a degree?                        77% - CDAs                      +/- 11%

          Has Head Start provided any assistance to help
          you in obtaining your degree?                           88% - CDAs                      +/- 5%

          Do you believe the effort to have more degreed
          teachers in Head Start has helped the program           83% - CDAs                      +/- 8%
          and the children it serves?                             92% - Degreed Teachers          +/- 3%

          Do you believe degreed teachers are better able         50% - CDAs                      +/- 15%
          to address the needs of children?                       57% - Degreed Teachers          +/- 11%

          Do you plan to remain with Head Start for the
          next 3 years?
                                                                  89% - CDAs                      +/- 7%
                     Yes
                                                                  83% - Degreed Teachers          +/- 6%

                                                                  11% - CDAs                      +/- 7%
                     No
                                                                  17% - Degreed Teachers          +/- 6%

          What are the factors that are influencing your
          decision to remain with the program?

                                                                  40% - CDAs                      +/- 20%
                     Salary
                                                                  41% - Degreed Teachers          +/- 11%

                                                                  34% - CDAs                      +/- 18%
                     Health Insurance (Self)
                                                                  39% - Degreed Teachers          +/- 14%

                                                                  16% - CDAs                      +/- 9%
                     Health Insurance for Family Members
                                                                  19% - Degreed Teachers          +/- 8%

                                                                  35% - CDAs                      +/- 13%
                     Retirement Plan
                                                                  38% - Degreed Teachers          +/- 13%

                                                                  50% - CDAs                      +/- 13%
                     Working Conditions
                                                                  55% - Degreed Teachers          +/- 9%

                                                                  41% - CDAs                      +/- 14%
                     Family Considerations
                                                                  30% - Degreed Teachers          +/- 6%

                     Training and Educational                     56% - CDAs                      +/- 13%
                     Opportunities                                46% - Degreed Teachers          +/- 11%




Increasing the Qualifications of Head Start Teachers        15                                      OEI-07-01-00560
                                                                                                 APPENDIX C


                             Traditional Head Start Programs’ 

                         Reported Progress in Achieving At Least

                            50 Percent Degreed Teaching Staff

                      for Head Start Enrollment Year 2001 - by State


                                                          Head Start Programs
                                                  that Have Achieved at least 50 percent
                                                     Degreed Teaching Staff - By State
                                      = Majority of Programs are below 50 percent Degreed Teaching Staff
                                                 Source: Program Information Report Data



                                                                                                           Percentage of
                                               Responsible   Number of Programs   Number of Programs         Programs
                                                  ACF              During             At or Above           At or Above
                                                Regional      Enrollment Year        50% Degreed           50% Degreed
           States                                Office      2000 through 20011        Teachers              Teachers

           Alabama                                     4             28                    3                   11%

           Alaska                                      10             6                    0                    0%

           Arizona                                     9             22                    5                   23%

           Arkansas                                    6             19                    1                    5%

           American Samoa                              9              1                    0                    0%

           California                                  9             129                   75                  58%

           Colorado                                    8             40                    20                  50%

           Connecticut                                 1             23                    16                  70%

           Delaware                                    3              5                    3                   60%

           D.C.                                        3              9                    8                   89%

           Florida                                     4             63                    18                  29%

           Federal States of                           9              3                    0                    0%
           Micronesia

           Georgia                                     4             37                    5                   14%

           Guam                                        9              1                    0                    0%

           Hawaii                                      9              5                    5                   100%

           Idaho                                       10             7                    5                   71%

           Illinois                                    5             91                    80                  88%

           Indiana                                     5             39                    24                  62%

           Iowa                                        7             20                    11                  55%

           Kansas                                      7             27                    18                  67%




Increasing the Qualifications of Head Start Teachers            16                                           OEI-07-01-00560
                                                                                                       Percentage of
                                               Responsible   Number of Programs   Number of Programs     Programs
                                                  ACF              During             At or Above       At or Above
                                                Regional      Enrollment Year        50% Degreed       50% Degreed
           States                                Office      2000 through 20011        Teachers          Teachers

           Kentucky                                    4             43                   9                21%

           Louisiana                                   6             45                   16               36%

           Maine                                       1             13                   6                46%

           Marshall Islands                            9              1                   0                 0%

           Maryland                                    3             29                   19               66%

           Massachusetts                               1             31                   23               74%

           Michigan                                    5             73                   55               75%

           Minnesota                                   5             27                   18               67%

           Mississippi                                 4             19                   10               53%

           Missouri                                    7             22                   6                27%

           Montana                                     8             13                   3                23%

           Nebraska                                    7             16                   11               69%

           Nevada                                      9              4                   1                25%

           New Hampshire                               1              6                   6                100%

           New Jersey                                  2             30                   17               57%

           New Mexico                                  6             15                   5                33%

           New York                                    2             169                 155               92%

           North Carolina                              4             46                   21               46%

           North Dakota                                8             10                   7                70%

           Northern Mariana Islands                    9              1                   1                100%

           Ohio                                        5             67                   29               43%

           Oklahoma                                    6             20                   3                15%

           Oregon                                      10            21                   11               52%

           Pennsylvania                                3             59                   47               80%

           Puerto Rico                                 2             37                   27               73%

           Palau                                       9              1                   0                 0%

           Rhode Island                                1              8                   8                100%

           South Carolina                              4             14                   2                14%

           South Dakota                                8              8                   7                88%

           Tennessee                                   4             24                   7                29%

           Texas                                       6             102                  43               42%

           Utah                                        8              8                   4                50%



Increasing the Qualifications of Head Start Teachers            17                                       OEI-07-01-00560
                                                                                                         Percentage of
                                               Responsible   Number of Programs   Number of Programs       Programs
                                                  ACF              During             At or Above         At or Above
                                                Regional      Enrollment Year        50% Degreed         50% Degreed
           States                                Office      2000 through 20011        Teachers            Teachers

           Vermont                                     1              7                   7                  100%

           Virginia                                    3              50                  37                  74%

           Virgin Islands                              2              1                   0                   0%

           Washington                                  10             28                  17                  61%

           West Virginia                               3              24                  12                  50%

           Wisconsin                                   5              32                  21                  66%

           Wyoming                                     8              7                   3                   43%

           Total:                                                    1,706               971                  57%
           1   The numbers and percentages shown above are for those programs that were required to report teaching
               staff and had at least one teacher.
           2   This analysis is based on traditional Head Start programs only, allowing for comparison of more “similar”
               programs. Had American Indian and Alaska Native, migrant, and Early Head Start programs been
               included, the total programs would be 2,299, the number of programs not meeting ACF’s self-imposed
               staffing goal would be 1,100, and the overall percentage of programs not meeting ACF’s goal would be 47.8
               percent.




Increasing the Qualifications of Head Start Teachers            18                                         OEI-07-01-00560
                                                                     APPENDIX D


                                                  Agency Comments





Increasing the Qualifications of Head Start Teachers     19                OEI-07-01-00560
Increasing the Qualifications of Head Start Teachers   20   OEI-07-01-00560
Increasing the Qualifications of Head Start Teachers   21   OEI-07-01-00560
              ACKNOWLEDGMENTS

This report was prepared under the direction of Brian T. Pattison, Regional Inspector General
for Evaluation and Inspections in the Kansas City Regional Office and Gina C. Maree,
Assistant Regional Inspector General. Other principal Office of Evaluation and Inspections
staff who contributed include:

Perry A. Seaton, Team Leader                   Elise Stein, Director,
Zula Crutchfield, Project Leader                 Public Health and Human
Elander J. Phillips, Program Analyst            Services Branch
Brian T. Whitley, Program Analyst              Linda L. Hall, Program Specialist


Technical Assistance

Barbara R. Tedesco, Mathematical Statistician
Robert L. Gibbons, Program Analyst, San Francisco
